APPENDIX TABLE OF CONTENTS
Memorandum Opinion of the United States
Circuit Court for the Ninth Circuit
(November 7, 2019) ............................................ 1a
Judgment in a Criminal Case
(April 27, 2018) ................................................... 5a
Oral Colloquy and Bench Ruling Denying Motion
to Terminate Retained Counsel
(January 22, 2018)............................................ 17a
Order of the United States Circuit Court for the
Ninth Circuit Denying Petition for Rehearing
(November 26, 2019) ........................................ 30a

App.1a
MEMORANDUM OPINION OF THE
UNITED STATES CIRCUIT COURT
FOR THE NINTH CIRCUIT*
(NOVEMBER 7, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
UNITED STATES OF AMERICA,

Plaintiff-Appellee,
v.
GERALD CLAUDE CARLSON,

Defendant-Appellant.
________________________
No. 18-30096
D.C. No. 3:17-cr-05188-RBL-1
Appeal from the United States District Court
for the Western District of Washington,
Ronald B. Leighton, District Judge, Presiding
Argued and Submitted October 25, 2019
Seattle, Washington
CLIFTON, IKUTA, and BENNETT, Circuit Judges.
Defendant-Appellant Gerald Claude Carlson
appeals from his jury trial conviction of one count of
possession with intent to distribute methamphetamine,
* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

App.2a
in violation of 21 U.S.C. §§ 841(a)(1) and 841(b)(1)(A),
and one count of possession of a firearm in furtherance of a drug trafficking crime, in violation of 18
U.S.C. §§ 924(c)(1)(A) and (2). We affirm.
Carlson challenges the district court’s denial of
his request to replace his trial counsel. Under the Sixth
Amendment, a defendant who hires his own attorney
has a right “to be represented by the attorney of his
choice,” but this right is not absolute. United States
v. Rivera-Corona, 618 F.3d 976, 979 (9th Cir. 2010). A
defendant “may have the counsel of his choice unless
a contrary result is compelled by purposes inherent
in the fair, efficient and orderly administration of
justice.” United States v. Brown, 785 F.3d 1337, 1344
(9th Cir. 2015) (quoting Rivera-Corona, 618 F.3d at
979). In assessing this question, a trial court has a
“wide latitude in balancing the right to counsel of choice
against the needs of fairness . . . and against the
demands of its calendar.” United States v. GonzalezLopez, 548 U.S. 140, 152 (2006).
Although the district court’s description of its
reasons for denying the request may not have been
stated in the clearest and most comprehensive manner,
it is apparent here that the denial was primarily
based on the demands of its calendar. The issue did not
arise until the Friday before the Monday that Carlson’s
trial was scheduled to begin. Though the attorney
had been representing him for more than six months,
it was on that Friday that Carlson told her that he
wanted to replace her. The attorney notified the court
clerk that day but the matter could not be presented
to the court until the following Monday morning
when trial was to begin. By that time, a jury pool had
been gathered, and counsel and witnesses were pre-

App.3a
pared to proceed with trial. Carlson did not want to
represent himself, so he would need new counsel if
the prior attorney was dismissed, but he had not
obtained or even sought another attorney by the day
trial was to begin, though he had not been in custody.
In denying the request, the district court noted that
its calendar was busy, that two continuances had
already been granted in the case, and that granting
the request would cause delay. The district court did
not abuse its discretion in denying the request.
Carlson also appeals the district court’s admission of expert testimony on the drug trade by a DEA
agent. First, Carlson contends that the expert’s testimony ran afoul of our rule barring expert testimony
as to “the modus operandi of drug trafficking organizations . . . in cases where . . . the defendant is not
charged with conspiracy to distribute drugs.” United
States v. Pablo Varela-Rivera, 279 F.3d 1174, 1179 (9th
Cir. 2002). The testimony here, however, concerned
the modus operandi or methods of individual drug
sellers, not drug trafficking organizations. We have
held that law enforcement experts “may testify as to
the general practices of criminals to establish the
defendants’ modus operandi.” United States v. Anchrum, 590 F.3d 795, 804 (9th Cir. 2009) (quoting United
States v. Freeman, 498 F.3d 893, 906 (9th Cir. 2007)).
The testimony here was of that nature.
Second, Carlson argues that the expert testimony constituted inadmissable [sic] character or criminal profile testimony in violation of Fed. R. Evid. 404.
When such testimony makes “innocuous events indicate
criminal activity,” it may be inherently prejudicial to
the defendant. United States v. Lim, 984 F.2d 331, 335
(9th Cir. 1993). Here, however, the expert testimony

App.4a
concerned the common practices and methods of sellers of methamphetamine and not their character
traits or the actions of users, so it did not present such
a danger. The expert witness did not cite innocuous
events as evidence of criminality. The district court
did not abuse its discretion in admitting the testimony.
AFFIRMED.

App.5a
JUDGMENT IN A CRIMINAL CASE
(APRIL 27, 2018)
UNITED STATES DISTRICT COURT,
WESTERN DISTRICT OF WASHINGTON
________________________
UNITED STATES OF AMERICA,
v.
GERALD CLAUDE CARLSON,
________________________
Case Number: 3:17CR05188RBL-001
USM Number: 48380-086
Before: Ronald B. LEIGHTON, District Judge
Karen L. Unger, Defendant Attorney
JUDGMENT IN A CRIMINAL CASE
THE DEFENDANT:
X was found guilty on count(s) 1 & 2 of the Indictment
Jury Verdict: 01/25/2018 after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
-------------------

App.6a
Count 1
Title & Section
21 U.S.C. §§ 841(a)(1), 841(b)(1)(A),
and 18 U.S.C. § 2
Nature of Offense
Possession of Methamphetamine with
Intent to Distribute
Offense Ended
05/12/2016
------------------Count 2
Title & Section
18 U.S.C. §§ 924(c)(1)(A) and 2
Nature of Offense
Possession of a Firearm in Furtherance of a Drug
Trafficking Crime
Offense Ended
05/12/2016
------------------The defendant is sentenced as provided in pages
2 through 7 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
It is ordered that the defendant must notify the
United States attorney for this district within 30 days
of any change of name, residence, or mailing address
until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution the defendant must notify

App.7a
the court and United States Attorney of material
changes in economic circumstances.
/s/ Gregory A. Gruber
Assistant United States Attorney
April 20, 2018
Date of Imposition of Judgment
/s/ Ronald B. Leighton
Signature of Judge
Ronald B. Leighton, United States
District Judge
Name and Title of Judge
April 27, 2018
Date

App.8a
IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be
imprisoned for a total term of:
180 months
(i.e., 120 months on Count 1,
and 60 months on Count 2, consecutive)
__X__ The court makes the following recommendations to the Bureau of Prisons: FCI Sheridan
__X__ The defendant is remanded to the custody of
the United States

SUPERVISED RELEASE
Upon release from imprisonment, you will be on
supervised release for a term of:
five (5) years.

App.9a
MANDATORY CONDITIONS
1. You must not commit another federal, state
or local crime.
2. You must not unlawfully possess a controlled
substance.
3. You must refrain from any unlawful use of a
controlled substance. You must submit to one drug
test within 15 days of release from imprisonment and
at least two periodic drug tests thereafter, as determined by the court.
___ The above drug testing condition is suspended, based on the court’s determination that
you pose a low risk of future substance abuse.

(check if applicable)

4. ____ You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other
statute authorizing a sentence of restitution. (check

if applicable)

5. X You must cooperate in the collection of
DNA as directed by the probation officer. (check if

applicable)

6. ____ You must comply with the requirements
of the Sex Offender Registration and Notification Act
(34 U.S.C. § 20901, et seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex
offender registration agency in which you reside,
work, are a student, or were convicted of a qualifying
offense. (check if applicable)
7. You must participate in an approved program
for domestic violence. (check if applicable)

App.10a
You must comply with the standard conditions
that have been adopted by this court as well as with
any additional conditions on the attached pages.
STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must
comply with the following standard conditions of supervision. These conditions are imposed because they
establish the basic expectations for your behavior
while on supervision and identify the minimum tools
needed by probation officers to keep informed, report
to the court about, and bring about improvements in
your conduct and condition.
1. You must report to the probation office in the
federal judicial district where you are authorized to
reside within 72 hours of your release from imprisonment, unless the probation officer instructs you to
report to a different probation office or within a different time frame.
2. After initially reporting to the probation
office, you will receive instructions from the court or
the probation officer about how and when you must
report to the probation officer, and you must report
to the probation officer as instructed.
3. You must not knowingly leave the federal
judicial district where you are authorized to reside
without first getting permission from the court or the
probation officer.
4. You must answer truthfully the questions
asked by your probation officer.

App.11a
5. You must live at a place approved by the
probation officer. If you plan to change where you
live or anything about your living arrangements
(such as the people you live with), you must notify
the probation officer at least 10 days before the
change. If notifying the probation officer in advance
is not possible due to unanticipated circumstances,
you must notify the probation officer within 72 hours
of becoming aware of a change or expected change.
6. You must allow the probation officer to visit
you at any time at your home or elsewhere, and you
must permit the probation officer to take any items
prohibited by the conditions of your supervision that
he or she observes in plain view.
7. You must work full time (at least 30 hours
per week) at a lawful type of employment, unless the
probation officer excuses you from doing so. If you do
not have full-time employment you must try to find
full-time employment, unless the probation officer
excuses you from doing so. If you plan to change
where you work or anything about your work (such as
your position or your job responsibilities), you must
notify the probation officer at least 10 days before the
change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated
circumstances, you must notify the probation officer
within 72 hours of becoming aware of a change or
expected change.
8. You must not communicate or interact with
someone you know is engaged in criminal activity. If
you know someone has been convicted of a felony,
you must not knowingly communicate or interact
with that person without first getting the permission
of the probation officer.

App.12a
9. If you are arrested or questioned by a law
enforcement officer, you must notify the probation
officer within 72 hours.
10. You must not own, possess, or have access
to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was designed, or
was modified for, the specific purpose of causing
bodily injury or death to another person such as
nunchakus or tasers).
11. You must not act or make any agreement
with a law enforcement agency to act as a confidential human source or informant without first getting
the permission of the court.
12. If the probation officer determines that you
pose a risk to another person (including an organization), the probation officer may require you to notify
the person about the risk and you must comply with
that instruction. The probation officer may contact the
person and confirm that you have notified the person
about the risk.
13. You must follow the instructions of the probation officer related to the conditions of supervision.
U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the
conditions specified by the court and has provided me
with a written copy of this judgment containing these
conditions. For further information regarding these
conditions, see Overview of Probation and Supervised
Release Conditions, available at www.uscourts.gov.
Defendant’s Signature ___________________
Date _____________

App.13a
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on
Sheet 6.
TOTALS
Assessment

$ 200

JVTA Assessment*:

$ N/A

Fine:

$ Waived

Restitution:

$ None

___ The determination of restitution is deferred
until _________________. An Amended Judgment in a
Criminal Case (AO 245C) will be entered after such
determination.
___ The defendant must make restitution (including community restitution) to the following payees in
the amount listed below.
If the defendant makes a partial payment, each
payee shall receive an approximately proportioned payment, unless specified otherwise in the priority order or
percentage payment column below. However, pursuant
to 18 U.S.C. § 3664(i), all nonfederal victims must be
paid before the United States is paid.
Name of Payee

______________

Total Loss**

______________

Restitution Ordered

______________

Priority or Percentage

______________

TOTALS

$ 0.00 / $ 0.00

App.14a
* Justice for Victims of Trafficking Act of 2015, Pub.
L. No. 114-22.
** Findings for the total amount of losses are required
under Chapters 109A, 110, 110A, and 113A of Title
18 for offenses committed on or after September 13,
1994, but before April 23, 1996.
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay,
payment of the total criminal monetary penalties is
due as follows:
X PAYMENT IS DUE IMMEDIATELY. Any
unpaid amount shall be paid to Clerks Office, United
States District Court, 700 Stewart Street, Seattle,
WA 98101.
X During the period of imprisonment, no less
than 25% of their inmate gross monthly income or
$25.00 per quarter, whichever is greater, to be collected
and disbursed in accordance with the Inmate Financial
Responsibility Program..
X During the period of supervised release, in
monthly installments amounting to not less than 10%
of the defendant’s gross monthly household income,
to commence 30 days after release from imprisonment.
The payment schedule above is the minimum
amount that the defendant is expected to pay towards
the monetary penalties imposed by the Court. The
defendant shall pay more than the amount established
whenever possible. The defendant must notify the
Court, the United States Probation Office, and the
United States Attorney’s Office of any material change

App.15a
in the defendant’s financial circumstances that might
affect the ability to pay restitution.
Unless the court has expressly ordered otherwise,
if this judgment imposes imprisonment, payment of
criminal monetary penalties is due during the period
of imprisonment. All criminal monetary penalties,
except those payments made through the Federal
Bureau of Prisons’ Inmate Financial Responsibility
Program are made to the United States District Court,
Western District of Washington. For restitution payments, the Clerk of the Court is to forward money
received to the party(ies) designated to receive restitution specified on the Criminal Monetaries (Sheet 5)
page.
The defendant shall receive credit for all payments previously made toward any criminal monetary
penalties imposed.
Payments shall be applied in the following order:
(1) assessment, (2) restitution principal, (3) restitution
interest, (4) fine principal, (5) fine interest, (6) community restitution, (7) JVTA Assessment, (8) penalties,
and (9) costs, including cost of prosecution and court
costs.

App.16a
___ Restitution amount ordered pursuant to
plea agreement $
___ The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the fifteenth day
after the date of the judgment, pursuant to 18 U.S.C.
§ 3612(f). All of the payment options on Sheet 6 may be
subject to penalties for delinquency and default,
pursuant to 18 U.S.C. § 3612(g).
___ The court determined that the defendant
does not have the ability to pay interest and it is
ordered that:
___ the interest requirement is waived for
the ___ fine
___ restitution
___ the interest requirement for the
___ fine
___ restitution is modified as follows: X
___ The court finds the defendant is financially
unable and is unlikely to become able to pay a fine
and, accordingly, the imposition of a fine is waived.

App.17a
ORAL COLLOQUY AND BENCH RULING
DENYING MOTION TO TERMINATE
RETAINED COUNSEL
(JANUARY 22, 2018)
UNITED STATES DISTRICT COURT,
WESTERN DISTRICT OF WASHINGTON
________________________
UNITED STATES OF AMERICA,
v.
GERALD CLAUDE CARLSON,
________________________
3:17CR05188RBL-001
Ronald B. Leighton, District Judge
THE CLERK: U.S.A. versus Gerald Carlson, Cause No.
CR17-5188RBL.
Counsel, please make an appearance.
MR. GRUBER: Good morning. Gregory Gruber appearing on behalf of the United states. Over here at
the end of counsel table is Shaun Darby, Pierce
County Sheriff’s Department.’
MR. PENALVER: Andre Penalver.
THE COURT: Mr. Penalver.
MS. UNGER: Karen Unger with my client, Mr. Carlson.
THE COURT: Ms. Unger, Mr. Carlson, good morning.
I was advised Friday afternoon, late afternoon. I

App.18a
was advised there was an issue of counsel. Is
that exigent now?
MS. UNGER: Yes.
THE COURT: I’ll ask the Government to leave. We will
deal with an ex parte issue.
MR. GRUBER: Yes.
THE COURT: Don’t be far away. We’ll have you back
in a few minutes.
(The following proceedings were sealed, page 4,
line 24 through page 10, line 14.)
THE COURT: Ms. Unger.
MS. UNGER: I met with Mr. Carlson on Friday. He
came to my office hoping we could prepare for trial.
I met with Mr. Carlson on several occasions. I
met with him in his home in Graham a couple of
months ago. He made it clear that he wanted to
go to trial, The Government made several offers
to resolve this. Mr. Carlson is looking at a long
time in prison if he is convicted because of the
mandatory minimums that these charges require.
I have contacted Mr. Carlson on numerous occasions via e-mail. We have spoken over the phone.
Mr. Carlson was insistent on going to trial. I am
preparing for trial. I filed the motions I felt were
relevant. He came on Friday. After about an
hour, he indicated to me that he didn’t want me to
represent him anymore, He wanted me not to
represent him in the trial. He doesn’t think I
believe that he is not guilty. He doesn’t apparently
have any confidence in my ability to proceed as
his counsel.

App.19a
As soon as he made that clear to me, under the
RPC contacted the clerk and let the clerk know
my client didn’t want me to represent him. I
believe he wants to retain other counsel and go
from there.
THE COURT: Mr. Carlson, what do you have to say?
THE DEFENDANT: That is pretty much it. Occasions
we met, she went to my daughter’s house. We
didn’t discuss .about the case. Didn’t have any
discussion of the case at all or in our meetings.
THE COURT: What did you do?
THE DEFENDANT: She was offering up the plea
bargain, saying kick it back to state court, at my
daughter’s house, When she got back, they said
no, they wouldn’t do that. Then a couple weeks ago
I called her up, are you doing anything about the
case? Are you preparing for it? She said she was.
When I got up there, I didn’t see anything she
has done to prepare for my defense or anything.
THE COURT: What kind of evidence or what should
she review? I have looked at all the evidence, trial
memorandum. It is pretty straightforward. Pretty
compelling.
THE DEFENDANT: No motions to suppress any of
the statements by the detectives or anything
because they are not truthful. Didn’t make an
attempt.
THE COURT: She almost succeeded on her motion to
cut Jewell out.
THE DEFENDANT: l don’t see a problem with the
expert.

App.20a
THE COURT: You have lost faith in her?
THE DEFENDANT: She basically told me she didn’t
think the same way I did, and she couldn’t think
the same way I did, and then just wasn’t going
to put on any defense.
THE COURT: Have you sought any other lawyer to
see if he or she sees the world the same as you
do?
THE DEFENDANT: Well, I haven’t had time. We
didn’t have a meeting until 2:30 on Friday in
Port Angeles.
THE COURT: You have waited way beyond the 11th
hour, Looking at the evidence, it strikes me that
that this is little more than an effort to delay the
inevitable.
THE DEFENDANT: No. I seen the evidence, Mostly
about my admittance or confessions to the
detective.
THE COURT: You know, you throw that out, and you
are still left with meth, guns, money, Pay O,
scales. Is that a romper room for your grand
kids?
THE DEFENDANT: Romper room, what is that?
THE COURT: What is a jury going to do with that
evidence?
THE DEFENDANT: If they look at it and see what it
is, it is not what they are stating it is.
THE COURT: What is it?
THE DEFENDANT: A little book with chicken scratch
in it. Drug ledger? I don’t know what that means.

App.21a
None of it adds up to or verifies drug. dealing.
All the guns were locked up in a safe. I was in
my home.
THE COURT: Thousand dollar bundles in envelopes
Marked “Chewy.”
THE DEFENDANT: It was just a piece of paper with
some numbers on it that said “Chewy.” Not
hundred dollar bills that said ‘Chewy.”
THE COURT: You segregated the money into thousand dollar piles.
THE DEFENDANT: Yeah. I go on vacation. I don’t
have a credit card. I go in my safe, open it up,
grab $4,000 and head to Florida.
THE COURT: Would you like to represent yourself
today?
THE DEFENDANT: No, I want a lawyer that will
address their statements or whatever.
THE COURT: The public has an interest-in speedy
trial just as you do. You continued it twice.
I looked at the docket this weekend. I have the
docket right here where you are requesting continuances.
THE DEFENDANT: I never requested any.
UNIDENTIFIED SPEAKER: It was for her having a
baby. Her daughter having a baby.
THE COURT: Are you prepared to go to trial?
MS. UNGER: I am prepared. I have been prepared to
go to trial. To be quite frank, the case is not that
complicated. Mr. Carlson had an attorney in state
court, Apparently, they were in the same situation,

App.22a
which is why the case was dismissed in Pierce
County and refiled by the Government here because Mr. Carlson wouldn’t take advantage of
the plea offer that the State offered him.
THE DEFENDANT: They finally came up with one.
MS. UNGER: I don’t know what to say, other than I
disagree with Mr. Carlson in that I am prepared
to go to trial, I believe we have had discussions. I
have sent him many e-mails outlining what I
thought the Government’s case would be and
why I thought he could be convicted. I never said
I wouldn’t represent him. I never said I wouldn’t
let him put on his case. He is very committed to
tell the jury whatever it is he feels his perspective of the evidence and the case is. He said
things to me on Friday about the legitimacy of
the search warrant that I never heard before
from him, which concerned me.
THE DEFENDANT: We never had a meeting before.
MS. UNGER: I feel like I have met with him enough.
I have read some of the cases that the Government found over the weekend. It causes me some
concern. I know the Government is concerned it
could be sent back because Mr. Carlson -THE COURT: I have read Judge Berzon’s opinion on
Brown. That is the one.
MS. UNGER: That is the one.
THE COURT: There are others. The Court is mindful
of the public’s right. The defendant has serious
rights to be protected and guarded against abuse.
The public has an equal -- a right to see justice

App.23a
occur expeditiously, efficiently, and not allow
people to make a mockery of the rule of law.
As an aside, if the detention order would have
boon different, I don’t think Mr. Carlson would
be making his argument today.
MS. UNGER: I honestly would have brought this to
the Court’s attention if I knew Mr. Carlson was
feeling that way, The Court knows that.
THE COURT: As far as I am concerned, you pulled a
rabbit out of the hat by getting him out of jail,
the detention deal. With guns and meth, I would
have detained him. I would have detained him
awaiting trial. The magistrate judge thought
differently. Anyway, the motion is denied. We are
going to go to trial, We will start voir dire at 9:30.
The court is at recess. Tell Greg
(The proceedings recessed.)
(The proceedings resumed
with all counsel present.)
THE COURT: Mr. Gruber, Mr. Penalver.
MR. GRUBER: Mr. Penalver, we just want to make
sure, since we weren’t in here to hear any of
that, that certain things are on the record for,
obviously, if it goes up on appeal.
MR. PENALVER: The cases we provided speak to one
point. When the trial proceeds when the defendant
has a retained counsel and wishes to change
counsel on the eve of the trial, one of the most
important things is there is a clear record as to
the Court’s decision.

App.24a
THE COURT: I asked Mr. Carlson if he wanted to
represent himself, for example. We did not discuss the issue, whether he had -- has the right to
have appointed counsel. We didn’t get that far.
He had not retained another lawyer. My reasons
are delay. He is just -- it is just a game. That is
what I said.
MR. PENALVER: I imagine, with the court administration and a jury pool already assembled, that
also -THE COURT: The record will sufficiently portray that
because we are going to pick a jury in ten
minutes.
MR. GRUBER: The only other thing I guess I would
just seek to clarify, which should be, I guess,
somewhat clear, or at least can be inferred from
an examination of the docket, but Ms. Unger has
been retained since approximately a week after
the defendant’s detention hearing back in late
April. If any of this had been brewing prior to
Friday, he has had seven months to hire somebody else.
THE COURT: There have been two prior continuances. That is on the record.
MR. GRUBER: I think that is really all we wanted to
address, Your Honor. Thank you.
THE COURT: It is not my first rodeo, but I have been
bucked off a couple of times.
MR. GRUBER: I just got recently burned on an appeal
where it was all about what happened when I
wasn’t in the room. That always makes me nervous.

App.25a
Thank you, Your Honor.
THE COURT: We be at recess until
(The proceedings recessed.)
THE COURT: Are we ready for the jury?
MS. UNGER: Yes, Your Honor.
MR. GRUBER: Before we bring them in, there was the
matter defense counsel and I raised with the Court
a couple weeks ago. We wanted to see if the Court
wanted to put anything on the record about that.
We brought the issue to The Court’s attention.
THE COURT: There are two people on the witness
list who I know. Mr. Darby and Darrin -- where
is the witness list. Darrin Rayner. I know those
two gentlemen. Not very well. I do know them, I
know a lot of prosecuting lawyers, a lot of defense
lawyers, a lot of law enforcement people in the
federal government and county government. I
was the chairman of the Civil Service Commission
for the sheriff’s apartment for 16 years before I
went on the bench, I know them. They would not
expect any treatment in their favor. This is not a
ease that would even invite suspicion of anyone
in this case pulling punches or anything of the
like. I addressed it as a non issue. I told counsel
it was a non-issue.
MR. GRUBER: Thank you, I would note that while
Detective Derby will be testifying, at this point
we do not expect Detective Rayner to testify.
(Prospective jurors enter.)
THE COURT: Anything to take up with the Court at
this time?

App.26a
MR. GRUBER: I don’t think so.
THE COURT: Let me, for the record, digress on the
counsel issue before the jury came to put another
factor on the record that was In my mind and
was not expressed. spend 600 hours on the bench
last year, more than twice any of my colleagues.
My trial schedule is packed going forward. That
is just another reality that we are confronted
with. I invite that. I like being in trial and giving
people a chance to tell their story, That puts added
pressure on the existing schedule, and to stay to
it to the best of my ability.
Anything else?
MR. GRUBER: No.
MS. UNGER: I would like to just say something about
my client’s relationship with me. I. don’t know if
I should say it in the presence of the Government.
THE COURT: Before I let them go, are there any
subjects that you want me to ask before you
folks -- I have taken the voir dire. Both sides
have been here in cases such as this. You know
the kinds of questions I am going to ask.
MR. GRUBER: Totally unrelated to the counsel issue,
the only thing 1 guess my co-counsel here is a
little bit nervous about is one thing. He recognized
the gentleman. I forget his number. It might be
12. He is the attorney in the back row. Apparently,
Mr. Penalver served on some board with him. I am
not sure how long ago. Some time ago. Apparently,
the juror doesn’t really remember Mr. Penalver.
1 think that makes it a non-issue.
MR. PENALVER: Not unusual for people.

App.27a
THE COURT: He is very forgettable.
MR. GRUBER: He wanted to note that.
THE COURT: Do you want me to ask him?
-MR.

PENALVER: The fact he didn’t remember means
it probably is not going to have any effect on his
decision-making.

THE COURT: I will ask.
MR. GRUBER: Mr. Penalver will also be asking questions. He may recognize his voice, et cetera.
MS. UNGER: As far as general questions, does the
Court intend to inquire about firearms, guns?
THE COURT: I have questions about drugs and guns,
attitudes about guns, all that, Those questions
get answered very quickly and succinctly, unless
there is some problem. If you want a more cerebral discussion on the subject, we can -MS. UNGER: No. I think the questions are simple
enough to ask. You can eventually get some discussion from the juror, I figured you asked so -THE COURT: No, that’s exactly the kind of stuff I
want.
MR. GRUBER: You want us to step out?
THE COURT: You guys out.
MR. GRUBER: 15 minutes?
THE COURT: Yes, about 11:20.
Ms. Unger, do you want me to clear the balcony
or not?
MS. UNGER: I would imagine that is up to the Court.

App.28a
THE COURT: Two law clerks.
MR. GRUBER: My assistant Lisa is up there. I can’t
see her. She should step out if she is.
THE COURT: You are a spectator?
UNIDENTIFIED SPEAKER: All externs.
THE COURT: They are court staff.
Sir?
UNIDENTIFIED SPEAKER: I was just going to relay
a message to defense counsel. I will step out.
(The following proceedings were sealed,
page lines 1-21.)
MS. UNGER: I want to make a record. My client does
not have any confidence in me in this case. He
doesn’t believe I am going to do a good job for
him. I know he is upset that he wasn’t able to
replace me, I want to make it clear that Mr.
Carlson knows I have conveyed this to the Court.
I understand he doesn’t have any confidence in
me. I understand he doesn’t seem to understand
why I think what I think and how I reached the
conclusions I reached, analyzing the evidence,
looking at the materials. He and I do not agree
on that at all.
THE COURT: I understand.
It is for Ms. Unger’s edification more so then Mr.
Carlson, I guess. Ms. Unger is one of the premier
defense lawyers that comes in time and time
again into my courtroom to represent her client.
I have every confidence in Ms. Unger. If I were
ever in trouble, I would always be in front of a

App.29a
jury, not a judge, and Ms. Unger would be on my
short list.
Court is at recess.
(The proceedings recessed.)
(The following proceedings resumed
with all counsel present.)
THE COURT: Prepared for the jury?
MR. GRUBER: Yes, Your Honor.

App.30a
ORDER OF THE UNITED STATES CIRCUIT
COURT FOR THE NINTH CIRCUIT*
DENYING PETITION FOR REHEARING
(NOVEMBER 26, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
UNITED STATES OF AMERICA,

Plaintiff-Appellee,
v.
GERALD CLAUDE CARLSON,

Defendant-Appellant.
________________________
No. 18-30096
D.C. No. 3:17-cr-05188-RBL-1
Western District of Washington, Tacoma
CLIFTON, IKUTA, and BENNETT, Circuit Judges.
Appellant’s Petition for Rehearing (DocketEntry
No. 75) is DENIED.

* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

